 ER-B-99-07

        AUDIT
       REPORT

                              MAINTENANCE ACTIVITIES
                                 AT THE Y-12 PLANT




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL          MAY 1999
  OFFICE OF AUDIT SERVICES
                                       DEPARTMENT OF ENERGY
                                          Washington, DC 20585

                                                   May 4, 1999

MEMORANDUM FOR THE ACTING MANAGER, OAK RIDGE OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Maintenance Activities at the Y-12 Plant"


BACKGROUND

Department of Energy (Department) policy requires the use of performance measures to assess the
efficiency of maintenance operations. The Department recommends that performance measures be
developed to evaluate progress toward meeting plant maintenance goals, and that deviations in expected
results be analyzed to identify root causes and reported to management for corrective action. The
objective of this audit was to determine whether Lockheed Martin Energy Systems (Lockheed Martin)
used performance measures to identify and correct inefficiencies in its maintenance program.

RESULTS OF AUDIT

Lockheed Martin did not adequately use performance measures to identify and correct inefficiencies in its
maintenance program. Specifically, Lockheed Martin did not adequately apply engineered time standards
in estimating jobs, nor did it use variance analysis to resolve deviations from job plans. This condition
occurred because Lockheed Martin did not fully implement Departmental guidelines. As a result,
Lockheed Martin missed opportunities to improve its performance and cost-effectiveness. If Lockheed
Martin were to improve its maintenance labor efficiency at the Y-12 Plant by just 10 percent, it could
perform additional maintenance valued at about $3 million annually. The additional maintenance activity
could be used to reduce the $11.2 million backlog for plant maintenance projects.

MANAGEMENT REACTION

Management concurred with our finding and recommendations and has initiated corrective actions.
MAINTENANCE ACTIVITIES AT THE Y-12 PLANT


TABLE OF
CONTENTS



                Overview

                Introduction and Objective .........................................................1

                Conclusions and Observations.................................................. 2


                Performance Measures

                Details of Finding ......................................................................3

                Recommendations and Comments ...........................................6


                Appendix

                Scope and Methodology ............................................................9
Overview

INTRODUCTION AND   The Y-12 Plant occupies 800 acres spanning 2.5 miles in East Tennessee
OBJECTIVE          adjacent to the City of Oak Ridge. The plant includes some 250
                   buildings, totaling 7 million square feet, and is managed by Lockheed
                   Martin. The Y-12 Plant’s missions include manufacturing and
                   reworking nuclear weapon components, dismantling nuclear weapon
                   components returned from the national arsenal, serving as the nation’s
                   storehouse of special nuclear materials, and providing special production
                   support to programs.

                   The Y-12 Plant’s Facilities Management Organization (FMO) supports
                   the plant’s missions by providing utilities and maintenance services. The
                   mission of the FMO is to provide safe and efficient utilities and maintain
                   the Department’s property in a safe, economical, and effective manner.
                   In Fiscal Year (FY) 1998, the FMO maintenance efforts cost over $81.5
                   million. The FMO is comprised of 7 departments, and employs
                   approximately 750 people in its maintenance effort. The FMO is a
                   service organization that charges hourly rates to its customers for
                   maintenance services.

                   The Office of Inspector General has not reviewed maintenance activities
                   at the Y-12 Plant in recent years. However, an audit was performed of
                   maintenance activities at the East Tennessee Technology Park (formerly
                                                     1
                   the K-25 Site) in February 1994. The audit concluded that Lockheed
                   Martin (formerly Martin Marietta Energy Systems) had not effectively
                   used engineered performance standards to estimate maintenance hours,
                   and had not adequately analyzed variances between actual and estimated
                   hours to identify and correct maintenance inefficiencies. In that report,
                   we recommended that the contractor use engineered performance
                   standards to estimate maintenance hours and analyze variances between
                   estimated and actual hours to identify and correct inefficient practices.
                   Management concurred with the finding and recommendations.

                   The objective of this audit was to determine whether Lockheed Martin
                   used performance measures to identify and correct inefficiencies in its
                   maintenance program.


                   ______________________________
                   1
                     Audit of Maintenance Activities at the K-25 Site, Martin Marietta Energy Systems,
                   Inc., Audit Report ER-BC-94-01, February 9, 1994.



                   Lockheed Martin did not adequately use performance measures to


Page 1                                                               Introduction and Objective
CONCLUSIONS AND   identify and correct inefficiencies in its maintenance program.
OBSERVATIONS      Specifically, Lockheed Martin did not adequately apply engineered time
                  standards in estimating jobs, nor did it use variance analysis to resolve
                  deviations from job plans. This condition occurred because Lockheed
                  Martin did not fully implement Departmental guidelines. As a result,
                  Lockheed Martin missed opportunities to improve its performance and
                  cost-effectiveness.

                  An ongoing study determined that, in a major operational area, Lockheed
                  Martin was performing only 25 to 30 percent of the scheduled workload.
                  If Lockheed Martin were to improve its maintenance labor efficiency at
                  the Y-12 Plant by just 10 percent, it could perform additional
                  maintenance valued at about $3 million annually. The additional
                  maintenance activity could be used to reduce the $11.2 million backlog
                  for plant maintenance projects.

                  The audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.




                                                            (Signed)

                                                        Office of Inspector General




Page 2                                                    Conclusions and Observations
PERFORMANCE MEASURES


Performance Measures   Lockheed Martin did not adequately use performance measures to
Were Not Used          identify and correct inefficiencies in its maintenance program.
                       Specifically, Lockheed Martin did not adequately apply engineered time
                       standards in estimating jobs, nor did it use variance analysis to resolve
                       deviations from job plans. Engineered performance standards assist in
                       estimating labor hour requirements and provide benchmarks which
                       enable managers to evaluate and control actions. Variance analysis
                       involves comparing planned performance to actual performance, such as
                       comparing estimated hours to actual hours, identifying the cause of the
                       variance, and applying corrective actions. Lockheed Martin’s job
                       estimates were primarily based on the planners’knowledge with only
                       minimal use of engineered performance standards, and were not used by
                       management to evaluate performance. Further, despite large variances
                       between the hours estimated to perform specific jobs and the hours
                       actually charged to the jobs, Lockheed Martin did not analyze variances
                       to identify causes and develop corrective action plans.

                       The following are examples of FY 1998 maintenance jobs that were not
                       analyzed for inefficiencies:

                              • A planner estimated that it would take 710 hours to paint
                                4 rooms and a stairwell; however, the crew actually took
                                2,530 hours to complete the job. Personnel who performed
                                the work stated that they could not close off the stairwell for
                                painting as planned because the elevator was broken. Also,
                                security procedures restricted the amount of paint allowed in
                                the processing areas. Additionally, the painters had to wait
                                for radiological control technicians to scan equipment before
                                they could leave the rooms. Further, a new permit was
                                required to bring the paint sprayer into a clean hallway. Poor
                                coordination between the parties involved contributed to the
                                inefficiency of this job.

                              • A planner estimated that it would take 40 hours to paint
                                labels on pipes in a process area, but it actually took 271
                                hours. Personnel who performed the job stated that many of
                                the pipes were not previously labeled and the painters had to
                                wait for a process engineer or utilities manager to identify the
                                pipes before the labels could be made. According to the
                                crew, this condition caused delays in completing the work.




Page 3                                                                      Details of Finding
                • A planner estimated that it would take 198 hours to replace
                  the temperature controls in one room. However, the crew
                  actually spent 875 hours upgrading temperature controls in a
                  series of interconnecting rooms at the customer’s request.
                  The job estimate was not adjusted, nor was the job package
                  revised to document the change in scope.

                • A planner estimated that it would take 16 hours to repair a
                  skip hoist, but the repair actually took 705 hours. The
                  planner’s estimate stated "Make minor repairs only. Major
                  repairs require job rescope." Despite this directive, major
                  repairs were apparently performed at the customer’s request
                  without revising the job scope.

         The planners, crew supervisors, and customers involved in the jobs
         discussed above were not aware of the actual hours charged to the jobs
         prior to our interviews. In addition, the personnel interviewed had little
         or no concern regarding variations between the estimated and actual
         hours. Once the jobs were planned and scheduled, the planners’work
         was finished. The crew supervisors were concerned with completing the
         jobs and keeping the customers happy, and were generally not
         concerned with the number of hours estimated or incurred. Finally, the
         customers interviewed were generally not aware of the hours incurred or
         the reasons jobs were delayed.

         Lockheed Martin has known of inefficiencies in maintenance for several
         years. In April 1996, a self-assessment was conducted on the Y-12
         Plant’s Enriched Uranium Operations work control process. The
         assessment team concluded that the work control process lacked the
         rigor, commitment, and management oversight needed to effectively
         plan, schedule, and execute maintenance activities that maximize use of
         resources and available time. The assessment team found, among other
         things, that work scheduling and coordination difficulties were
         contributing to low productivity, and there were not enough "ready-to-
         work" jobs to fully utilize available crafts. A reassessment performed in
         November 1996 determined that the work control process was basically
         unchanged and had not progressed despite recommendations made in
         the earlier assessment.

         In October 1998, Lockheed Martin entered into a subcontract with
         Duke Engineering & Services Federal Group (Duke) in which Duke
         agreed to assist Lockheed Martin in performing reviews and assessments
         of its organizations to evaluate the effectiveness and efficiency of

Page 4                                                         Details of Finding
                         operations, and develop and implement strategies for increasing
                         efficiencies. In December 1998, Lockheed Martin issued a Standard
                         Technical Directive under the subcontract that tasked Duke to facilitate
                         a review on work control processes. With Duke as the facilitator, a
                         project team including maintenance and Enriched Uranium Operations
                         personnel was organized to assess the maintenance work control process
                         in Enriched Uranium Operations. The project team found that
                         maintenance was only performing about 25 to 30 percent of the
                         scheduled workload, and that the growing backlog was evidence of
                         scheduling inefficiencies. The backlog is currently estimated at
                         $11.2 million.

                         In January 1999, the project team issued a draft charter, stating that the
                         project’s purpose is "to streamline the Y-12 maintenance work control
                         process to gain efficiencies so that current resources may be used to
                         accomplish more maintenance work." The project should be completed
                         by May 31, 1999.

                         Departmental Order 430.1, Life Cycle Asset Management, requires the
                         use of performance measures, based upon best industry practice, to
                         ensure formal, comprehensive, documented planning and control
Performance Measures
                         methods for the maintenance of physical assets. The Department also
Are Required for
                         recommends that a maintenance program regularly provide management
Maintenance Activities
                         with accurate information regarding key maintenance indicators. Such
                         information should be measurable and used to assess maintenance
                         performance and identify areas requiring management attention. The
                         Department further recommends that performance measures be
                         developed to measure progress towards meeting plant maintenance
                         goals. Goals that are typically monitored include:

                                •   rate of activity completion,
                                •   percent compliance to the daily schedule,
                                •   progress against the schedule, and
                                •   expended hours versus planned hours for each craft or work
                                    group.

                         Deviations in the expected results identified in reviews of the
                         performance measures, such as those listed previously, should be
                         analyzed to identify their root causes and should be reported to plant
                         management for appropriate corrective action.




Page 5                                                                         Details of Finding
Departmental            Lockheed Martin did not fully implement the Departmental guidance in
Guidance Was Not        its maintenance organization. Rather than using engineered performance
Implemented             standards or management indicators to evaluate performance, the
                        maintenance organization usually relied on its customers to assess its
                        performance. Maintenance supervisors indicated that performance was
                        satisfactory as long as the Y-12 Plant customers were satisfied with the
                        quality and timeliness of services provided.

                        Lockheed Martin did have some performance measures related to
                        overall maintenance activities. Specifically, it established targets for its
                        general maintenance rate, preventive maintenance schedule adherence,
                        distribution of work (i.e., hours charged to preventive maintenance,
                        corrective maintenance and maintenance-related activities), and the
                        overall maintenance backlog. However, these performance measures
                        were not applicable to specific maintenance activities and were not used
                        to assess job performance. These performance goals and standards were
                        not readily measurable and, therefore, could not be used to measure
                        actual results as required by the Government Performance and Results
                        Act of 1993.

                        Because it lacked meaningful performance measures, Lockheed Martin
Opportunities for       has missed opportunities to identify and correct inefficiencies, and thus
Improving Performance   improve cost-effectiveness. A project team determined that, in a major
and Reducing the        operational area, the maintenance organization was performing only 25
Backlog Were Missed     to 30 percent of the scheduled workload. In FY 1999, maintenance
                        labor is over $30 million. If Lockheed Martin were to improve its
                        maintenance labor efficiency at the Y-12 Plant by just 10 percent, it
                        could perform additional maintenance valued at about $3 million
                        annually. The additional maintenance activity could be used to reduce
                        the $11.2 million backlog for plant maintenance projects.
                        Lockheed Martin agreed that maintenance had been operating
                        inefficiently and provided a corrective action plan. The plan includes
                        actions to correct (1) the lack of performance measures, (2) maintenance
                        crews performing more work than included in the work package scope,
                        and (3) the failure to apply standards-based estimates.

                        We recommend that the Acting Manager, Oak Ridge Operations Office,
RECOMMENDATIONS         direct Lockheed Martin to:

                        1. Formalize and implement the draft corrective action plan initiated
                           during the audit, and ensure that performance measures are
                           developed and used to identify and correct operating inefficiencies;
                           and

Page 6                                                     Recommendations and Comments
                      2. Complete the study on the maintenance work control process and
                         implement the corrective actions identified.

MANAGEMENT REACTION   Management concurred with the finding and recommendations.
                      Management agreed that Lockheed Martin had not implemented the
                      use of performance measures as a basis for analysis and identification
                      of root causes of inefficiencies to the extent necessary to adequately
                      effect improvements in work efficiency. Management is vigorously
                      pursuing the action plan advocated in Recommendation 1, and has
                      established a target date of September 1, 1999. The study of the
                      maintenance work control process described in Recommendation 2 is
                      underway, and scheduled for completion by May 31, 1999, with
                      implementation of the corrective action identified to follow.

                      Management stated that Lockheed Martin had used engineered
                      performance standards to estimate jobs through the use of Naval
                      Facilities standards, and that the majority of Lockheed Martin
                      planner-estimators were trained on the use of these standards.
                      Management agreed, however, that the degree of use of these
                      standards is less than desired and that Lockheed Martin has not, in
                      recent years, followed a formal system of variance analysis to resolve
                      deviations.

                      Management questioned the sampling of maintenance jobs used as the
                      basis of conclusions regarding gross deviations between estimates and
                      actual time charged, and stated that the jobs cited in the report
                      represented a small segment of work typically performed by the
                      FMO.

                      Finally, management stated that the report did not bring a balanced
                      perspective on the use of performance measures relative to
                      maintenance activities at Y-12, and focused on a single weakness.
                      Management stated that, due to emphasis on environmental, safety,
                      and health compliance issues, along with the focus on production
                      restart, attention has been focused on areas other than purely job
                      efficiency. As the site returns to a re-started production mode,
                      attention will be refocused on maintenance efficiency.




                      We consider management’s actions to be responsive to our


Page 7                                               Recommendations and Comments
AUDITOR COMMENTS   recommendations. Although we agree that the FMO performed a
                   greater number of small jobs (i.e. jobs estimated to take less than 16
                   hours) versus large jobs, we found no measures of efficiency at any job
                   level.

                   We disagree with management’s statement that the report did not bring
                   a balanced perspective on the use of performance measures. The scope
                   of our audit was limited to a review of performance measures related to
                   efficiency of operations. We do not believe that efficiency of operations
                   should be compromised as other issues arise.




Page 8                                               Recommendations and Comments
Appendix

SCOPE         The audit was performed from October 7, 1998, through March 26,
              1999, at the Operations Office and the Y-12 Plant. The scope of the
              audit included maintenance job requests closed during FY 1998, and was
              limited to building maintenance jobs. The FMO closed over 17,000
              building maintenance job requests in FY 1998.

METHODOLOGY   To accomplish the audit objective we:

              • Reviewed Federal laws and Departmental regulations and standards
                related to maintenance operations;
              • Reviewed performance measures used by the FMO;
              • Selected and reviewed a judgmental sample of Y-12 Plant
                maintenance work requests;
              • Interviewed personnel responsible for requesting, planning, and
                performing the sampled jobs; and
              • Compared estimated hours to actual hours for maintenance jobs
                performed in FY 1998.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental and contractor policies,
              procedures, and performance measures related to the management and
              control of maintenance activities. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies that
              may have existed at the time of our audit.

              We did not rely on computer-generated data in the maintenance system,
              and did not assess the reliability of the data. During the audit, we
              determined that the database information generated by the maintenance
              division’s computer system was often inconsistent with other
              information available. Lockheed Martin is in the process of replacing
              and upgrading that system.

              We held an exit conference with the Oak Ridge Operations Office’s
              Maintenance Manager on April 14, 1999.




Page 9                                                      Scope and Methodology
                                                                               IG Report No. : ER-B-99-07

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig
                                                 or
                                       http://www.ma.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
